Credit Card
Agreement and
Disclosure
Statement

Your Lifetime Financial Partner

In this Agreement the words “you” and “your”
mean each and all of those signing, using or
having a credit Card Account with Northwest
Federal Credit Union, referred to as “we” and
“us” or “Credit Union”. The “Card” and/or
the “Account” means any credit Card issued
to you or those designated by you under the
terms of this Agreement. “Use of the Card”
means any procedures used by you, or someone
authorized by you, to make a purchase or obtain
a cash advance whether or not the purchase
or advance is evidenced by a signed written
document. Virginia law will be used to interpret
this Agreement unless federal law applies. The
provisions of this Agreement are severable. If
any provision of this Agreement is held by a
court of law to be invalid or unenforceable the
rest of this Agreement will not be affected.
1. Acceptance of Cardholder Agreement.
By either using the Account or signing, using
or accepting the plastic cards(s) issued to you
by us (your “Card(s)”), you accept the terms
and conditions of this Agreement. All Cards
issued to you remain our property and must be
returned to us upon request. Once you have
received your Card, call the phone number
shown on the front of the Card to activate your
Card. By activating your Card, you acknowledge
you have received a copy of this disclosure.
We may delay or deny access to your Account
until you have called to confirm that you have
received and activated your Card.
2. Credit Line. Your Card Account will be an
open end Account. This means that you may
borrow the full amount of the line of credit,
repay the principal, accrued interest and fees
in full or in part, and borrow again up to your
maximum line of credit, as long as you continue
to be creditworthy and a member of the Credit
Union in good standing. To remain in good
standing, you must meet your entire loan and
Account obligations to the Credit Union and
comply with applicable laws and the Credit
Union’s bylaws. You agree to not use your Card
when the use will exceed your total credit limit.
You also agree that we are not obligated to
extend credit to you for an amount that would
make your outstanding balance exceed your
total credit limit or for any amount if your
1

outstanding balance is already over the total
credit limit. We can change your credit limit at
any time. If we allow you to use your Account
for more than your limit, you still agree to pay
the full amount you owe us. We may decline
to honor any transactions for any reason. You
agree that you will not use your Account for any
transaction that is illegal under any applicable
law.
3. Promise To Pay. You agree to pay us the
amount of purchases, cash advances, balance
transfers, fees and finance charges that you,
your coapplicant and/or authorized users make
(even if we didn’t issue a Card in that person’s
name) and whether or not you notify us that he
or she will be using it. Each person who uses the
Card(s) or permits another to use the Card(s)
agrees to be jointly and severally liable to the
Credit Union for all obligations due to the Credit
Union hereunder. If another person has use of
your Account and you want to end that person’s
privilege, you must recover and return that
person’s Card, if any. If you are unable to recover
and return the Card, you will continue to be
liable for any charges made unless you tell us to
cancel all Cards and establish a new Account for
you. We will automatically cancel all Cards if you
notify us of unauthorized use. Your obligation to
pay the Account balance continues even though
an agreement, divorce decree or other court
judgment to which we are not a party may direct
you or one of the other persons responsible
under this Agreement to pay the Account.
4. Authorizations. Some transactions on your
Account will require prior approval. These prior
approvals are called “authorizations”. We may
limit the number of authorizations we will give
the Account during any certain period of time
(day, weekend, week) and we may deny an
authorization if we suspect that your Account
is being used without your permission. If our
authorization system is not working fully, we
may be unable to give an authorization. For
security reasons, we cannot explain the details
of how the authorization system works. You
agree that we will not be liable for failing to
give an authorization. Transactions at some
participating merchants (such as hotels, car
rental companies, restaurants and gas stations)
2

may result in authorizations for amounts greater
than the actual purchase amount, which will
have the effect of making less credit available
on your Account for several days (usually
until the date the actual purchase amount is
received from the merchant). We may, but are
not required to, authorize transactions that will
cause the balance on your Account to exceed
the credit limit, and you agree that you are liable
for any such transactions as well as interest. If
you make a transaction that would cause you
to exceed your total credit limit we may (1)
authorize the transaction without increasing your
total credit limit; (2) authorize the transaction
without increasing your total credit limit and
treat that amount as immediately due, or (3)
deny authorization. If the authorization is denied
we may notify the person who attempted
the transaction that it has been refused. If we
authorize a transaction that causes your Account
to exceed its credit limit, it does not mean that
we will do so again in the future. In addition,
we reserve the right to deny transactions or
authorizations from merchants apparently
engaging in the Internet gambling business
or identifying themselves through the Card
transaction record or otherwise as engaged in
such business.
5. Special Features. You may receive separate
information about special features of your
Card Account. Your use of such features will be
governed both by the terms of this Agreement
and by the terms contained in such separate
information.
6. Monthly Payment. Your monthly statement
will tell you the total amount that you owe us,
the minimum payment that you must make and
your payment due date. The minimum payment
for credit card Accounts will be the greater of (1)
2% of the new balance or (2) $35.00. If the new
balance of your Account is less than $35.00 the
minimum payment will be the new balance.
You may pay the new balance in whole or in part
at any time. We will not charge you a penalty for
paying more than the minimum payment. We
will determine at our option, the order in which
payments will be applied toward Purchases,
Cash Advances, Balance Transfer, unpaid
Finance Charges and other Fees and Charges in
3

accordance with applicable laws. We may accept
checks marked “payment in full” or with words
of similar effect without losing any of our rights
to collect the full balance of your Account with
us. In addition, any past due amount is due and
payable immediately. If your balance exceeds
your credit limit, we also require that you pay
the over limit amount.
Any payment submitted to us in the form of
a check or other paper document may be
converted to an electronic transaction through
procedures established by the National
Automated Clearing House Association. If this
occurs, the original check or other document
that you send to us will not be retained, but a
copy would be available if requested.
7. Finance Charges, Grace Period and Index
Rate. A FINANCE CHARGE will be imposed on
Credit Purchases only if you elect not to pay the
entire New Balance of purchases shown on your
monthly statement for the previous billing cycle
within 25 days from the closing date of that
statement. If you elect not to pay the entire New
Balance of purchases shown on your previous
monthly statement within that 25-day period,
a FINANCE CHARGE will be imposed on the
unpaid average daily balance of such Credit
Purchases from the previous statement closing
date and on new Credit Purchases from the date
of posting to your Account during the current
billing cycle, and will continue to accrue until
the closing date of the billing cycle preceding
the date on which the entire New Balance of
purchases is paid in full or until the date of
payment if more than 25 days from the closing
date. A FINANCE CHARGE will be imposed on
each Cash Advance from the transaction date
and continue daily until the date each Cash
Advance is paid in full.
The FINANCE CHARGE for a billing cycle is
computed by applying the monthly Periodic
Rate to the average daily balance of Credit
Purchases and Cash Advances, which is
determined by dividing the sum of the daily
balances during the billing cycle by the number
of days in the cycle. Each daily balance of Credit
Purchases and Cash Advances is determined
by adding to the outstanding unpaid balance
of Credit Purchases and Cash Advances at the
4

beginning of the billing cycle any new Credit
Purchases and Cash Advances posted to your
Account, and subtracting any payments as
received and credits as posted to your Account,
but excluding any unpaid FINANCE CHARGES.
VISA FirstCard Periodic Rate: To determine
the Periodic Rate, we take the Rate divide that
number by 12 to arrive at the periodic rate. For
example, if the rate were 12.90% the Periodic
Rate for that billing cycle would be 1.075%
(12.9% divided by 12).
VISA Platinum Periodic Rate for Accounts
opened on or after 1/6/2010: To determine
the Periodic Rate, we take the “Index Rate,” as
defined below, add a Margin and divide that
number by 12 to arrive at the periodic rate. For
example, if the index rate were 5.0% and the
margin were 3.75%, the Periodic Rate for that
billing cycle would be 0.7292% (5.0% plus 3.75%
divided by 12). A periodic rate of 0.7292%
corresponds to an ANNUAL PERCENTAGE
RATE of 8.75%. The margin is based on an
evaluation of your credit history and may be
reviewed and adjusted annually. The Annual
Percentage Rate will not be higher than 18.00%,
regardless of the index rate.
Visa NOW REWARDS Periodic Rate: To
determine the Periodic Rate, we take the
“Index Rate” as defined below, add a Margin
and divide that number by 12 to arrive at the
periodic rate. For example, if the index rate
were 5.0% and the margin were 4.75%, the
Periodic Rate for that billing cycle would be
0.8125% (5.0% plus 4.75% divided by 12). A
periodic rate of 0.8125% corresponds to an
ANNUAL PERCENTAGE RATE of 9.75%. The
margin is based on an evaluation of your credit
history and may be reviewed and adjusted
annually. The Annual Percentage Rate will not be
higher than 18.00%, regardless of the index rate.
The Index Rate used for calculating your
Periodic Rate for a billing cycle is the Prime Rate
published in the Wall Street Journal on the last
business day of the prior month (the “Periodic
Rate Adjustment Date”). There are 12 Periodic
Rate Adjustment Dates per year.
Because the Index Rate may go up or down,
the Periodic rate applied to your Average
Daily Purchases Balance or Average Daily Cash
Advance Balance, as the case may be, may also
increase or decrease, thereby increasing or
5

decreasing the number of payments you will be
required to make in order to repay your Total
New Balance.
The Periodic Rate that is applied to your
Average Daily Purchases Balance and Average
Daily Cash Advance Balance appears on your
monthly statement. The Periodic Rate, in effect
at the time of your Card approval, was provided
to you in a separate Credit Union initial welcome
letter and or acknowledgment form.
8. Change In Terms Of Your Account. We can
change or add to any terms of your Account at
any time. We do not guarantee that the fees
and the Annual Percentage Rates (APRs) on this
Account are for any particular length of time.
Future changes will be made in accordance
with this Agreement and applicable law. We
will provide you with such notice as is required
by applicable law. Such changes may apply to
the existing balance on your Account as well
as to future balances in accordance with this
Agreement and applicable law. If required by
applicable law, we will permit you to reject
certain types of changes, by providing us with
written notice and closing your Account and you
would then be permitted to repay any balance
on the Account under the terms in effect prior to
the change.
9. Savings Account Required. All applicants
and co-applicants on a credit card Account must
have an open savings Account that carries a
share par balance. You must continue to be a
member of the Credit Union and comply with
the basic Account requirements to maintain
eligibility for this Account. You may close your
Account at any time by notifying us in writing
and returning all Cards cut in half.
10. Overdraft Protection Advances. Overdraft
protection advances will begin only if you
designate your Card as an overdraft protection
source in writing. If your checking Account does
not have sufficient available funds to cover any
item presented and drawn on the Account,
any overdraft up to your unused credit limit
will be added to your credit Card Account
balance under this Agreement, if the Credit
Union pays the item. The Credit Union has
the right to refuse overdraft advances but will
6

notify you of the refusal. If there is more than
one person listed on the checking Account
(such as a joint checking Account) that you have
linked for Overdraft Protection, then: (1) you
will be responsible for all Overdraft Protection
advances regardless of which person causes any
item to be presented or engages in any other
transaction that causes the overdraft (checks,
ACH, debit Card, etc); and (2) you expressly
consent to us disclosing to any other person
on that checking Account that the checking
Account is linked to the Card for Overdraft
Protection. We reserve the right to cancel or
suspend your Overdraft Protection service at any
time at our sole discretion, for any reason.
11. Credit Card Fees. We may charge your
Card or your Account for Card related fees.
The application and payment of the fee will not
correct the situation that caused the fee to be
charged. Please refer to our current Credit Card
Pricing Information.
Other Fees: (1) If you ask the Credit Union for
statement research and reconstruction services
for any reason, you will be charged the same
hourly rate then being charged by the Credit
Union for all of its checking Accounts for that
service; (2) Additional fees may be charged
if agreed between you and us; and (3) To the
extent not prohibited by law, if you are in
default, you agree to pay our collections costs,
attorney’s fees and court costs incurred in
enforcing our rights under this Agreement.
We may waive any of the fees in this Agreement
at our discretion; however, we reserve the right
to begin charging any fee that was previously
waived without providing prior notice to you.
12. Reevaluation of Credit. We can
reinvestigate and reevaluate any information you
provided on your credit application at any time,
and in the course of doing so, we may ask you
for additional information, request credit bureau
reports and/or otherwise verify your current
credit standing.
13. Account Closing. We may cancel, revoke,
reduce the amount of your credit line or
suspend your rights under this Agreement
and require the return of the Card(s) for any
reason, including your default, without notice to
7

you except in those situations where notice is
required by law. You may also close the Account
at any time by notifying us in writing and
returning all Cards. If the Account is closed or
we terminate or suspend your credit privileges
for any reason, you must still repay any unpaid
balance you owe to us including charges and or
transactions not yet received by us, as well as
subsequent Finance Charges and other charges
according to the terms of this Agreement. Each
Card is our property and you agree that the
Cards are not transferable and to surrender any
Card upon demand. If this is a joint Account,
either person who is liable on the Account may
give notice to cancel the Account, and we may
close it without notifying the other liable person.
14. Default. You will be in default, and we may,
without notifying you, temporarily suspend
your credit, close your Account, cancel all Cards
issued on it and require immediate payment
of your entire balance if any of the following
occurs:
a. You fail to make a payment when it is due;
b. You do not follow the terms of this
Agreement in any way;
c. You have made any false or misleading
statement on the application for your
Account;
d. You fail to pay any other loans you owe us;
e. You become insolvent or die;
f. There is an attachment, execution or levy
against your property or you make an
assignment for the benefit of creditors;
g. A bankruptcy petition is filed by or against
you or your spouse;
h. A guardian, conservator, receiver, custodian
or trustee is appointed for you;
i. You are generally not paying your debts as
they become due;
j. There has been a material adverse change
in your financial standing;
k. Something happens that we believe may
seriously affect your ability to repay what
you owe under this Agreement.
15. Consent To Recover Delinquent Payments
From Accounts.
a.

In consideration for and as a condition of
the Credit Union issuing a Card(s) to you,
you agree that if you fail to make your
8

required payments the Credit Union can
take any monies on deposit at the Credit
Union in which you have an interest to
recover all or part of your delinquent
debt without advance notice to you and
without waiving other rights we have to
collect what you owe. This consent is not
a pledge of any shares and will not affect
your right to withdraw shares prior to
our exercise of our rights following your
payment default. This consent applies to
all funds you voluntarily deposit to Credit
Union Accounts, including funds such as
Social Security direct deposit that are
normally exempt from creditors’ remedies
(this does not include your Individual
Retirement, KEOGH or SEP Account). You
understand that we will never require you
to deposit exempt funds to Credit Union
Accounts.
b.

c.

For Cards secured by Shares, an amount
equal to 100% of your credit limit is
held in your Regular Savings Account as
collateral for your credit. If you give the
Credit Union a specific pledge of shares by
signing a separate pledge of shares, your
pledged shares will secure your Account.
You may not withdraw amounts that have
been specifically pledged to secure your
Account until the Credit Union agrees to
release all or part of the pledged amount.
If you default in your payments under this
Agreement, we have the right to apply the
amount specifically pledged to pay off this
Account in full or in part.
The security interests in this section apply
even if your Card(s) is otherwise designated
“secured” or “unsecured.”

16. Attorneys’ Fees. You agree to pay all costs
incurred by us in collecting your indebtedness or
in enforcing this agreement including attorney’s
fees and costs, as well as those costs, expenses
and attorney’s fees incurred in appellate,
bankruptcy and post-judgment proceedings,
except to the extent such costs, fees or
expenses are prohibited by law.
17. Returns and Adjustments. Merchants and
others who honor the Card may give credit
9

for returns or adjustments, and they will do so
by sending us a credit slip, which we will post
to your Account. If your credits and payments
exceed what you owe us, we will hold and apply
this credit balance against future purchases and
cash advances, or if it is $1.00 or more, refund it
on your written request or automatically after 6
months.
18. Plan Merchant Disputes. We are not liable
for the refusal of any plan merchant or financial
institution to honor your Card.
19. Additional Benefits/Card Enhancements.
The Credit Union may from time to time offer
additional services to your Account, such as
travel accident insurance, discontinue any credit
service, or replace your Card with another Card
at no additional cost to you. You understand
that the Credit Union is not obligated to offer
such services and may withdraw or change them
at any time.
20. Use of Card for Illegal or Risky
Transactions. You agree that you will not use
or allow others to use your Card(s) for illegal
transactions such as illegal online gambling. The
Credit Union may refuse to honor any transaction
we reasonably believe to be illegal. However,
ultimate responsibility for determining the legality
of transactions for which your Card is used rests
with you, not with the Credit Union. You agree to
hold us harmless for any damages or other liability
arising from a transaction initiated by you or your
authorized user for the purpose of conducting an
illegal activity, including but not limited to, internet
gambling or interstate sports betting. We reserve
the right to decline authorization of transactions
for activities we believe may violate law or pose
significant risk to our members or us. You cannot
use the actual or alleged illegality of a transaction
for which authorized use of your Account was
made as a defense to your obligation to pay.
21. Liability for Unauthorized Use. If you
believe that your Card may have been lost or
stolen or that your Account number may have
been used without your authorization you must
notify us immediately at: 1-800-336-3384 or
via our website, or by writing to: Northwest
Federal Credit Union, Attention: Card Services
10

Department, P.O. Box 1229, Herndon,
Virginia 20172-1229. You may be liable for the
unauthorized use of your Card depending on
the circumstances. Visa Cardholders: Depending
on the circumstances, you may qualify for zero
liability under the Visa zero liability program.
22. Lost Or Stolen Cards. You agree to notify us
immediately if your Card is ever lost or stolen or if
unauthorized use may occur. You agree to assist us
in determining the facts, circumstances, and other
pertinent information relating to any loss, theft, or
possible unauthorized use of your Card(s) and to
comply with such procedures as we may require
in connection with our investigation. We will send
you a new Card with a new Account number to
replace the Card that was lost or stolen. Although
you will be issued a new Account number, you will
not be considered to have opened a new Account,
and any existing balance will be transferred to the
replacement Account.
23. Foreign Transactions. Purchases and cash
advances made with Visa outside of the United
States and its territories, including online
purchases from a non-U.S. retailer that uses
an overseas bank to process transactions, may
incur an international transaction fee. This fee,
which is up to one percentage point (1%) of the
transaction amount, is assessed by Visa. The
Credit Union, as Card issuer, does not assess an
additional international transaction fee.
Visa. If you engage in a transaction in a currency
other than U.S. dollars using a Visa Card, Visa
International will convert the charge into a U.S.
dollar amount. The exchange rate between the
transaction currency and the billing currency
used for processing international transactions is
either (a) a rate selected by Visa from the range
of rates available in wholesale currency markets
for the applicable central processing date, which
rate may vary from the rate Visa itself receives,
or (b) the government mandated rate in effect
for the applicable central processing date. The
currency conversion rate for the processing date
may differ from the rate in effect on the date
of the transaction or the date the transaction is
posted to your billing statement.
24. Effect of Agreement and Amendments.
This Agreement governs all transactions on your
11

Account even though the sales, cash advance,
credit, or other slips you sign or receive may
contain different terms. We may amend or
change this Agreement, including rates, at any
time. If we do so, we will notify you in writing in
accordance with the applicable law. However,
we may reduce charges, fees and rates without
sending you an advance notice. Except as limited
by applicable law, any amendment will apply to
all then outstanding unpaid indebtedness arising
from the use of your Card prior to the effective
date of the amendment. Any such amendment
will not require your written consent, but your
consent (if required by applicable law) may be
evidenced by your use of the Card after we give
you notice of the amendment.
25. What To Do If You Think You Find A
Mistake On Your Statement. If you think there
is an error on your statement, write to us at:
Northwest Federal Credit Union
ATTN: Card Services Department
P.O. Box 1229
Herndon, VA 20172-1229
In your letter, give us the following information:
• Account information: Your name and Account
number.
• Dollar amount: The dollar amount of the
suspected error.
• Description of Problem: If you think there is an
error on your bill, describe what you believe is
wrong and why you believe it is a mistake.
• You must contact us within 60 days after the
error appeared on your statement. You must
notify us of any potential errors in writing. You
may call us, but if you do we are not required
to investigate any potential errors and you
may have to pay the amount in question
While we investigate whether or not there has
been an error, the following are true:
• We cannot try to collect the amount in
question, or report you as delinquent on that
amount.
• The charge in question may remain on your
statement, and we may continue to charge
you interest on that amount. But, if we
determine that we made a mistake, you will
not have to pay the amount in question or any
interest or other fees related to that amount.
• While you do not have to pay the amount
in question, you are responsible for the
12

remainder of your balance.
We can apply any unpaid amount against your
credit limit.
26. Your Rights If You Are Dissatisfied
With Your Credit Card Purchases. If you are
dissatisfied with the goods or services that you
have purchased with your Card, and you have
tried in good faith to correct the problem with
the merchant, you may have the right not to pay
the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in
your home state or within 100 miles of your
current mailing address, and the purchase
price must have been more than $50.
(Note: Neither of these are necessary if your
purchase was based on an advertisement
we mailed to you, or if we own the company
that sold you the goods or services.)
2. You must have used your Card for the
purchase. Purchases made with cash
advances from an ATM or with a check that
accesses your Card Account do not qualify.
3. You must not yet have fully paid for the
purchase.
If all of the criteria above are met and you are
still dissatisfied with the purchase, contact us in
writing at:
Northwest Federal Credit Union
ATTN: Card Services Department
P.O. Box 1229
Herndon, VA 20172-1229
While we investigate, the same rules apply to
the disputed amount as discussed above. After
we finish our investigation, we will tell you our
decision. At that point, if we think you owe an
amount and you do not pay we may report you
as delinquent.
•

27. Change Of Name, Address, Or Telephone
Number(s). You are responsible for promptly
notifying us of a change in your name, address
(including the e-mail address(es) you use for
online banking with us and any other e-mail
address(es) at which you agree to be contacted),
or telephone number(s) (including any wireless
telephone number(s).
28. Inactivity. Cards unused and or idle for
twelve (12) months or more with a zero (0)
balance will automatically be closed. Should that
13

occur an application and credit approval would
be required to establish a new Card Account.
29. Important Disclosures for Active Members
of the Military and Their Dependents. The
following applies if at the time of this unsecured
loan you are a member of the military or a
dependent (as those terms are defined in the
Military Lending Act, 10 U.S.C. 987 and its
implementing regulations):
1. NOTICE: Federal law provides important
protections to members of the Armed Forces
and their dependents relating to extensions
of consumer credit. In general, the cost of
consumer credit to a member of the Armed
Forces and his or her dependent may not
exceed an annual percentage rate of 36
percent. This rate must include, as applicable
to the credit transaction or Account: the
costs associated with credit insurance
premiums or debt protection fees; fees for
ancillary products sold in connection with
the credit transaction; any application fee
charged (other than certain application fees
for specified credit transactions or Accounts);
and any participation fee charged (other
than certain participation fees for a credit
card Account). To receive this notice verbally,
please call 844-709-4652.
2. This loan or advance will not be secured by a
consensual lien on shares or deposits in any
of your Accounts. The Credit Union, however,
does not waive any statutory share lien that
may apply to your loan.
3. Any reference to cross-collateralization shall
not apply to this loan or advance.
4. This loan or advance is not subject to
mandatory arbitration and therefore any
reference to mandatory arbitration in the
Credit Card Agreement and Disclosure
Statement shall not apply to this loan or
advance.
5. Any waiver under the Credit Card
Agreement and Disclosure Statement of
applicable state and federal rights shall not
apply to your loan.
All information about the Card described in this
disclosure is current as of 5/1/2021. Subject to
change.
GAM ( 5/1/2021) 3M
14

15

